No. 20-

IN THE

Supreme Court of the United States

UNITED STATES OF AMERICA, ex rel:
GWENDOLYN PORTER,

Petitioners
v.

MAGNOLIA HEALTH PLAN,
INCORPORATED

Respondent
On Petition For Writ of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
CERTIFICATE OF SERVICE
I, C. W. Walker, III, counsel of record for Petitioners, United States of America
ex rel‘ Gwendolyn Porter, and a member of the Bar of this Court, hereby certify that
on October 29, 2020, I caused to be served three (3) copies of the Petition for a Writ
of Certiorari on the above-referenced case by first-class mail, postage prepaid, upon

the counsel for Respondents as listed below.
Timothy L. Sensing

John B. Howell III
WATKINS & EAGER PLLC
400 East Capitol Street
Jackson, Mississippi 39201

Additionally, in accordance with Supreme Court Rule 29.3, an electronic

version of the Petition for a Writ of Certiorari was transmitted to counsel for

Respondents at the email addresses: tsensing@watkinseager.com and
jhowell@watkinseager.com.

I further certify that all parties required to be served have been served.

  

C. W. Walker III

Counsel of Record
C. W. Walker III, LLC
512 Main Street
Greenville, MS 38702
Phone: (662) 847-9475
